Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Trends in the Assignment of
  Resource Utilization Groups by
     Skilled Nursing Facilities




                        JULY 2001
                      OEI-02-01-00280
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                      HEADQUARTERS

Jodi Nudelman, Project Leader               Tricia Davis, Program Specialist

Danielle Fletcher, Lead Analyst             Brian Richie, Director, Technical Support Staff





  To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
         Reports are also available on the World Wide Web at our home page address:

                                  http://www.hhs.gov/oig/oei
                    EXECUTIVE SUMMARY
PURPOSE

      To examine changes in the proportion of Medicare beneficiaries assigned to each
      Resource Utilization Group in light of recent legislative changes to the prospective
      payment system for skilled nursing facilities.

BACKGROUND

      Congress mandated in Section 314 of the Benefits Improvement and Protection Act that
      the Office of Inspector General review the Medicare payment structure for services
      classified within the rehabilitation Resource Utilization Groups (RUGs) no later than
      October 1, 2001. In response, this inspection examines the trends in the proportion of
      Medicare residents assigned to each RUG to assess whether recent changes to the
      payment rates have created incentives for nursing facilities to admit certain patients.

      The Balanced Budget Act of 1997 changed reimbursement for skilled nursing facilities
      from a cost-based to a prospective payment system (PPS). Under the prospective
      payment system, skilled nursing facilities are required to assign residents to 1 of 44
      RUGs. In the Fall of 1999, Congress enacted the Balanced Budget Refinement Act
      (BBRA), which included a 4 percent across-the-board increase in payments to skilled
      nursing facilities for Fiscal Years 2001 and 2002 and a temporary 20 percent increase to
      15 RUGs for patient conditions considered medically complex. The changes went into
      effect on October 1, 2000. In 2000, Congress further adjusted the payment rates under
      the Benefits Improvement and Protection Act, which became effective on April 1, 2001.

      This inspection is based on an analysis of the Centers for Medicare and Medicaid
      Services’ National Claims History File. We analyzed the admission RUG code for all
      residents by quarter from January 1999 to January 2001.

FINDINGS

      No major changes in RUG assignment since the implementation
      of PPS

      Virtually no change in the proportion of residents assigned to the
      rehabilitation RUGs There are seven RUG categories: special rehabilitation,
      extensive care, special care, clinically complex, cognitively impaired, behavior problems,
      and reduced physical functions. The proportion of Medicare residents assigned to the
      RUGs in the rehabilitation category has remained about the same since the
      implementation of PPS in January 1999. There have also been no large changes in the

 Trends in RUGs for SNFS                       i                                   OEI-02-01-00280
      proportion of Medicare residents assigned to any of the other categories during this time
      period. In the first quarter of 2001, about 78 percent of all Medicare residents were
      assigned to one of the rehabilitation RUGs at admission.

      Small shifts within the rehabilitation RUGs Shifts have occurred in the proportion
      of residents assigned to the RUGs within the rehabilitation category since the
      implementation of PPS in January 1999. Medicare residents who require therapy are
      coded into one of five sub-categories depending upon the amount of therapy they need.
      These sub-categories are: ultra high, very high, high, medium, and low. The proportion
      of Medicare residents assigned to the high and medium therapy sub-categories increased
      slightly, while those assigned to the ultra high, very high, and low therapy sub-categories
      decreased slightly since the implementation of PPS.

      The BBRA increased payment rates for three RUGs within the high and medium therapy
      sub-categories. The proportion of Medicare residents assigned to two of these RUGs
      increased slightly, while those assigned to the third RUG remained about the same since
      the implementation of PPS. At the same time, the proportion of residents in all of the
      RUGs in the ultra-high, very high, and low therapy sub-categories steadily decreased
      over the last 2 years. It is important to note that the trends in the proportion of residents
      assigned to all of these RUGs have not changed since the BBRA became effective.

      No changes in the other RUGs The BBRA increased payment for all RUGs in the
      extensive care, special care, and clinically complex categories by 20 percent. Our
      analysis shows minimal changes in the proportion of residents coded in each of the RUGs
      in these categories since the implementation of PPS.

      Beneficiary characteristics remain the same We found no substantial changes in
      the characteristics of Medicare beneficiaries who were admitted to SNFs since the
      implementation of PPS. Specifically, beneficiaries’ age, sex, race, and reason for
      Medicare eligibility are the same in every quarter since January 1999.


CONCLUSION

      While we identified small changes in the affected rehabilitation RUGs, it appears that
      these trends began prior to the BBRA. We will continue to monitor the trends in the
      proportion of Medicare residents assigned to each of the RUGs as new data become
      available.




 Trends in RUGs for SNFS                        ii                                    OEI-02-01-00280
                           TABLE                         OF               CONTENTS


                                                                                                                                  PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

          No major changes in RUGs since PPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5




CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8



APPENDICES

          A: List of RUGs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          B: RUG Payment Rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          C: Proportion of Medicare Residents in RUG Categories . . . . . . . . . . . . . . . . . . . . . . . . 11


          D: Proportion of Medicare Residents in each RUG . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12





    Trends in RUGs for SNFS                                         iii                                                  OEI-02-01-00280
                            INTRODUCTION

PURPOSE

       To examine changes in the proportion of Medicare beneficiaries assigned to each
       Resource Utilization Group in light of recent legislative changes to the prospective
       payment system for skilled nursing facilities.

BACKGROUND

       Congress mandated in Section 314 of the Benefits Improvement and Protection Act
       (BIPA) that the Office of Inspector General (OIG) review the Medicare payment
       structure for services classified within the rehabilitation Resource Utilization Groups
       (RUGs) no later than October 1, 2001. In response, this inspection examines the trends
       in the proportion of residents assigned to each RUG to assess whether recent changes to
       the payment rates have created incentives for facilities to admit certain patients. This
       inspection is related to the OIG study entitled, Medicare Beneficiary Access to Skilled
       Nursing Facilities 2001, OEI-02-01-00160, which evaluates access to SNFs for Medicare
       beneficiaries based on interviews with hospital discharge planners and an analysis of
       Medicare data.

Medicare Payments to SNFs

       Medicare Part A helps to pay for SNF care when a beneficiary meets certain conditions.
       These conditions include a requirement of daily skilled nursing or rehabilitation services,
       a prior three consecutive day stay in a hospital, admission to a SNF within a short period
       of time after leaving the hospital, treatment for the same condition that was treated in the
       hospital, and a medical professional certifying the need for daily skilled nursing or
       rehabilitative care. The number of SNF days provided under Medicare is limited to 100
       days per benefit period, with a co-payment required for days 21 through 100. After the
       Medicare 100 day SNF Part A benefit runs out, the Medicare Part B benefit continues to
       pay for physician services and other Part B covered services.

       In order to control escalating nursing home costs, the Balanced Budget Act of 1997
       changed SNF reimbursement from a cost-based to a prospective payment system.
       Beginning with the first cost reporting period after July 1, 1998, SNFs are paid through
       prospective, case-mix adjusted per diem payments that cover routine, ancillary, and
       capital-related costs, including most items and services for which payment was
       previously made under Medicare Part B. The per diem payment is based on Fiscal Year
       1995 Part A & B costs adjusted using the SNF market basket index, the case-mix from
       resident assessments, and geographical wage variations. The market basket index


  Trends in RUGs for SNFS                       1                                     OEI-02-01-00280
     represents an inflation factor. The case-mix index takes into account that SNF residents
     require different levels of care.

     To determine the case-mix, SNFs are required to classify residents into 1 of 44 Resource
     Utilization Groups (RUGs). (See Appendix A for a complete listing of the RUGs.) To
     do this, SNFs must fill out the Minimum Data Set 2.0 (MDS) assessment, a standardized
     set of clinical and functioning status measures. An interdisciplinary team from the
     nursing home completes the MDS for every resident by the 5th, 14th, 30th, 60th, and the 90th
     days of their stay. Prior to PPS, the MDS had been used exclusively for care planning.

     The RUGs are divided into seven major categories: special rehabilitation, extensive
     services, special care, clinically complex, impaired cognition, behavior problems, and
     reduced physical function. Each of the RUGs is associated with a payment rate that is
     based on a number of factors such as the need for therapy and the level of functioning
     measured in terms of the activities of daily living (ADL). Medicare typically reimburses
     SNFs for residents coded only in the first four categories.

     Residents requiring physical or occupational therapy are assigned to a RUG in the special
     rehabilitation category. There are five special rehabilitation sub-categories: ultra-high,
     very high, high, medium and low. Each resident is classified in a sub-category depending
     on the number of therapy minutes required as indicated on the MDS in the last seven
     days. Each resident is then assigned to a specific RUG within these sub-categories
     depending on the level of self-performance and support needed with four ADLs: eating,
     bed mobility, toileting, and transfers. The score on the MDS for these four ADLs places
     the resident into a specific RUG. For example, a resident who requires 500 minutes of
     therapy and scores a 12 on the MDS for the ADLs would be assigned to RVB. (See
     Table 1.)




Trends in RUGs for SNFS                       2                                    OEI-02-01-00280
                                           Table 1
                               Special Rehabilitation Category

                Sub-Category        Therapy Minutes          Score on the MDS
                                   Required in the Last      of Four ADLs for
                                         7 Days                  each RUG
             Ultra-High           720 minutes               RUC= 16 to 18
                                                            RUB= 9 to 15
                                                            RUA= 4 to 8
             Very-High            500 minutes or more       RVC= 16 to 18
                                                            RVB= 9 to 15
                                                            RVA= 4 to 8
             High                 325 minutes or more       RHC= 16 to 18
                                                            RHB= 9 to 15
                                                            RHA= 4 to 8
             Medium               150 minutes or more       RMC= 16 to 18
                                                            RMB= 9 to 15
                                                            RMA= 4 to 8
             Low                  45 minutes or more        RLB= 14 to 18
                                                            RLA= 4 to 13


Recent Legislation

       Since the passage of the BBA 1997, Congress has made several changes to PPS. In the
       Fall of 1999, Congress enacted the Balanced Budget Refinement Act (BBRA) in
       response to providers’ concerns that reductions in payments were too severe. The BBRA
       included a 4 percent across-the-board increase in payments to SNFs for Fiscal Years
       2001 and 2002 and a temporary 20 percent increase to 15 RUGs for patient conditions
       considered medically complex. These include all the RUGs in the clinically complex,
       special care, and extensive care categories as well as three RUGs in the special
       rehabilitation category (RMB, RHC, and RMC). In addition, several costly non-therapy
       ancillary services, including certain ambulance services, prostheses, and chemotherapy
       drugs, are excluded from the prospective payment system and paid for separately. The
       BBRA changes went into effect on October 1, 2000. (See Appendix B for an example of
       the changes in the payment rates under BBRA.)

       In 2000, Congress further adjusted the payment rates under the Benefits Improvement
       and Protection Act (BIPA). The BIPA increased the inflation update to the full market
       basket in Fiscal Year 2001 and raised the nursing component of the RUGs by 16.6


  Trends in RUGs for SNFS                     3                                   OEI-02-01-00280
      percent in an effort to improve PPS nursing staff ratios. Additionally, the BBRA 20
      percent increase to the three rehabilitation RUGs was spread across all 14 special
      rehabilitation RUGs as a 6.7 percent increase. The other RUGs affected in the BBRA
      maintained the 20 percent increase. These changes went into effect on April 1, 2001.


METHODOLOGY

      Using the Centers for Medicare and Medicaid Services’ (CMS) National Claims History
      File, we examined data for Medicare beneficiaries who were admitted to SNFs between
      January 1, 1999 and March 31, 2001. We reviewed the RUG code generated from the
      MDS assessment conducted at admission that is on the UB92 claim. We analyzed the
      proportion of Medicare beneficiaries in each of the 44 RUG codes and in each of the 7
      RUG categories by quarter beginning in January 1999. We specifically focused on
      changes in the special rehabilitation RUGs that may result from the BBRA legislation.

      Second, we examined select characteristics of the Medicare beneficiaries in our analysis.
      Specifically, we analyzed the CMS enrollment data including beneficiaries’ age, race,
      sex, and the reason for eligibility to assess whether changes in these characteristics are
      associated with trends in the RUGs. Note that another OIG inspection, Medicare
      Beneficiary Access to Skilled Nursing Facilities 2001, OEI-02-01-00160, addresses the
      clinical characteristics of beneficiaries admitted to SNFs. Included in that analysis is the
      proportion of Medicare beneficiaries discharged to SNFs and the length of hospital stays
      for these patients by key diagnosis related groups (DRGs).

      Limitations

      The changes to the payment rates legislated in the BIPA will not be implemented until
      April 1, 2001. This analysis is therefore limited to the changes SNFs make as they
      anticipate the reforms made in the BIPA legislation.

      The data in the most recent quarter, January to March 2001, are not as complete as the
      other data used in our analysis. These data may change based on additional and adjusted
      claims submitted over the next year.

      This inspection was conducted in accordance with the Quality Standards for
      Inspections issued by the President’s Council on Integrity an Efficiency.




 Trends in RUGs for SNFS                        4                                    OEI-02-01-00280
                                  FINDINGS

No major changes in RUG assignment since the implementation of
PPS

Virtually no change in the proportion of residents assigned to the rehabilitation
RUGs

       The proportion of Medicare residents assigned to RUGs in the rehabilitation category has
       remained about the same since the implementation of PPS in January 1999. There also
       have been no large changes in the proportion of Medicare residents assigned to any of the
       other RUG categories during this time period. These categories include: extensive care,
       special care, clinically complex, cognitively impaired, behavior problems, and reduced
       physical functions. (See Appendix C.)

       In the first quarter of 2001, about 78 percent of all Medicare residents were assigned to
       one of the rehabilitation RUGs at admission. Another 13 percent were assigned to RUGs
       in the extensive care category and 5 percent were in the special care category. (See
       Figure 1.)
                                              Figure 1




                                            Source: National Claims History File



  Trends in RUGs for SNFS                      5                                   OEI-02-01-00280
Small shifts within the rehabilitation RUGs

       Shifts have occurred in the proportion of residents assigned to the RUGs within the
       rehabilitation category since the implementation of PPS in January 1999. Medicare
       residents who require therapy are coded in one of five sub-categories in the rehabilitation
       category depending upon the amount of therapy they need. These sub-categories are:
       ultra high, very high, high, medium, and low.

       The proportion of Medicare residents coded in the high and medium therapy sub-
       categories increased slightly in every quarter since the implementation of PPS. At the
       same time, the proportion of Medicare residents in the ultra high, very high, and low sub-
       categories decreased in almost every quarter since the implementation of PPS. As shown
       in Figure 2, the high and medium sub-categories increased from 53 percent to 61 percent
       over the last 2 years, whereas the other three therapy sub-categories decreased from 23
       percent to 17 percent during this time period.


                                            Figure 2
                     Proportion of Medicare Residents in RUGs




                                             Source: National Claims History File




  Trends in RUGs for SNFS                       6                                    OEI-02-01-00280
       The Balanced Budget Refinement Act (BBRA) raised the payment rates for three RUGs
       within the high and medium therapy sub-categories: RHC, RMC, RMB. These changes
       may have created incentives for SNFs to put residents into these RUGs as opposed to
       other rehabilitation RUGs.

       Our analysis shows that the proportion of Medicare residents assigned in the three RUGs
       affected by the BBRA increased or remained about the same since the implementation of
       PPS in January 1999. Specifically, the proportion of residents coded in RHC increased
       from 15 to 19 percent, those coded in RMB rose from 8 to 9 percent, and those coded in
       RMC remained about the same at 5 percent from 1999 to 2001. The proportion of
       residents in the other RUGs in the high and medium therapy sub-categories that were not
       affected by the BBRA followed similar patterns in that they increased or remained stable.
       At the same time, the proportion of residents assigned to all the remaining RUGs in the
       ultra-high, very high, and low therapy sub-categories steadily decreased over the last 2
       years. It is important to note that the trends in the proportion of residents assigned to all
       of these RUGs have not changed since the BBRA became effective in October 2000.
       (See Appendix D.)

No changes in the other RUGs

       The BBRA increased payment for each of the RUGs in the extensive care, special care,
       and clinically complex categories equally by 20 percent. In doing so, the law did not
       create incentives for SNFs to assign residents to one RUG as opposed to another. Our
       analysis shows minimal changes in the proportion of residents coded in each of the RUGs
       in these categories since the implementation of PPS. Specifically, the proportion of
       residents in each of these RUGs fluctuated by less than one percentage point in every
       quarter in the last 2 years.

Beneficiary characteristics remain the same

       We found no substantial changes in the characteristics of Medicare beneficiaries who
       were admitted to SNFs since the implementation of PPS. Specifically, beneficiaries’ age,
       sex, race, and reason for Medicare eligibility are the same in every quarter since January
       1999. In the first quarter of 2001, the average age of SNF Medicare beneficiaries at
       admission was 80 years. About 66 percent of Medicare beneficiaries were female.
       Eighty-eight percent were white and nine percent were black. About 94 percent of
       beneficiaries were eligible for Medicare because of age without end stage renal disease.




  Trends in RUGs for SNFS                        7                                    OEI-02-01-00280
                            CONCLUSION


     While we identified small changes in the affected rehabilitation RUGs, it appears that
     these trends began prior to the BBRA. We will continue to monitor the trends in the
     proportion of Medicare residents assigned to each of the RUGs as new data become
     available.




Trends in RUGs for SNFS                      8                                    OEI-02-01-00280
                              APPENDIX A




Trends in RUGs for SNFS   9      OEI-02-01-00280
                                                                                           APPENDIX B

        Comparison of RUG Rates for Urban Skilled Nursing Facilities

                     RUG                  Original                 Revised BBRA
                                          Payment*                 Payment**
                     RUC                  $384.21                  $400.93
                     RUB                  $345.90                  $360.90
                     RUA                  $327.28                  $341.46
                     RVC                  $296.15                  $309.12
                     RVB                  $286.30                  $298.83
                     RVA                  $261.12                  $272.52
                     RHC                  $271.53                  $340.19
                     RHB                  $249.64                  $260.61
                     RHA                  $228.84                  $238.88

                     RMC                  $267.34                  $334.96
                     RMB                  $238.87                  $299.27
                     RMA                  $224.64                  $234.52
                     RLB                  $212.95                  $222.39

                     RLA                  $179.01                  $186.93

                     SE3                  $252.91                  $317.02
                     SE2                  $218.97                  $274.46
                     SE1                  $194.88                  $244.26
                     SSC                  $190.50                  $238.78
                     SSB                  $181.74                  $227.80
                     SSA                  $177.36                  $222.30
                     CC2                  $189.41                  $237.41
                     CC1                  $175.18                  $219.56
                     CB2                  $166.42                  $208.58
                     CB1                  $158.75                  $198.97
                     CA2                  $157.66                  $197.60
                     CA1                  $148.90                  $186.62

*Published in the May 12, 1998 Federal Register
** Calculated from the revised SNF payment rates released by the CMS on April 1, 2001
http://www.hcfa.gov/medicare/snfppsuprate.htm

***Highlighting indicates RUGs that were increased by the Balanced Budget Refinement Act


   Trends in RUGs for SNFS                             10                                     OEI-02-01-00280
                                                                                                       APPENDIX C



                                        The Proportion of Medicare Residents in Each
                                           RUG Category at Admission by Quarter

                             CY 1999                                   CY2000                        CY 2001       Difference
RUG                QTR 1      QTR 2      QTR 3     QTR 4     QTR 1     QTR 2     QTR 3     QTR 4      QTR 1        1999-2001
Rehabilitation      76.5       77.0       77.0      76.3     76.2      76.4      76.6      77.3       78.1            1.6


Extensive           12.6       12.6       12.7      13.3     13.5      13.1      13.1      12.9       12.8             .2
Care

Special Care         5.6       5.4        5.4       5.3       5.2       5.3       5.2       4.9        4.7            -.9


Clinically           3.8       3.5        3.4       3.4       3.4       3.4       3.3       3.1        2.9            -.9
Complex

Cognitively          .3         .3         .3        .4       .4        .4        .4        .4         .4              .1
Impaired

Behavior             .04       .04         .1        .1       .1        .1        .1        .1         .1              0
Problems

Reduced              1.1       1.1        1.2       1.2       1.1       1.3       1.3       1.2        1.1            -.1
Physical
Functions
Total              421,912    412,927    406,346   421,990   476,749   430,072   416,336   392,319    374,529




   Trends in RUGs for SNFs                                    11                                               OEI-02-01-00280
                               The Proportion of Medicare Residents in Each                                APPENDIX D
                                       RUG at Admission by Quarter

                              CY 1999                                         CY 2000                    CY 2001       Difference
 RUG           QTR 1          QTR 2     QTR 3        QTR 4         QTR 1       QTR 2     QTR 3   QTR 4    QTR 1        1999-2001
 RUA             1.2           1.0       0.9           0.7          0.7         0.7       0.6     0.6      0.6           -0.6

 RUB             4.3           3.8       3.4           2.9          2.7         2.6       2.5     2.3      2.5           -1.8

 RUC             1.1           0.9       0.8           0.7          0.7         0.7       0.6     0.6      0.6           -0.5

 RVA             3.9           3.7       3.6           3.3          3.3         3.2       3.1     2.9      3.0           -0.9

 RVB            10.1           10.0      9.9           9.4          9.2         8.7       8.7     8.3      8.5           -1.6

 RVC             2.0           2.0       1.9           1.8          1.7         1.6       1.6     1.4      1.4           -0.6

 RHA             6.1           6.1       6.1           6.0          6.2         6.2       6.1     6.2      6.3            0.3

 RHB            15.8           16.6      16.9         17.3         17.3         17.3     17.4    17.8     18.1            2.3

 RHC            15.0           15.7      16.3         16.9         16.9         17.5     17.9    18.9     19.1            4.2

 RMA             3.4           3.3       3.4           3.3          3.4          3.5      3.4     3.4      3.3            0.0

 RMB             8.2           8.3       8.3           8.4          8.5         8.9       9.1     9.4      9.1            0.9

 RMC             4.9           5.0       5.1           5.1          5.3         5.2       5.2     5.3      5.2            0.2

 RLA             0.3           0.3       0.2           0.2          0.2         0.2       0.2     0.2      0.2           -0.2

 RLB             0.2           0.2       0.1           0.1          0.1         0.1       0.1     0.1      0.1           -0.1


*Highlighting indicates RUGs that were increased by the Balanced Budget Refinement Act

                                                                  Cont’d



    Trends in RUGs for SNFs                                         12                                             OEI-02-01-00280
                              CY 1999                                         CY 2000                    CY 2001       Difference
 RUG           QTR 1          QTR 2     QTR 3        QTR 4         QTR 1       QTR 2     QTR 3   QTR 4    QTR 1        1999-2001
 SE1             0.4           0.4       0.4           0.5          0.4         0.5       0.4     0.4      0.4            0.0

 SE2             6.7           6.7       6.8           7.1          7.2         7.0       7.0     6.9      6.8            0.2

 SE3             5.5           5.5       5.4           5.8          5.9         5.6       5.7     5.5      5.6            0.0

 SSA             3.6           3.6       3.6           3.6          3.5         3.7       3.6     3.4      3.4           -0.3

 SSB             1.2           1.1       1.1           1.1          1.1         1.0       1.0     0.9      0.8           -0.3

 SSC             0.8           0.7       0.7           0.7          0.7         0.6       0.7     0.6      0.5           -0.3

 CA1             1.7           1.5       1.5           1.5          1.5         1.5       1.4     1.4      1.3           -0.4

 CB1             1.1           1.0       1.0           1.0          1.0         1.0       1.0     0.9      0.8           -0.2

 CC1             0.4           0.3       0.3           0.3          0.3         0.3       0.3     0.3      0.3           -0.1

 CA2             0.3           0.3       0.3           0.3          0.3         0.3       0.3     0.3      0.2           -0.1

 CB2             0.2           0.2       0.2           0.2          0.2         0.2       0.2     0.2      0.2           -0.1

 IA1             0.1           0.1       0.1           0.1          0.2         0.2       0.2     0.2      0.2            0.1

 IB1             0.2           0.2       0.2           0.2          0.2         0.2       0.2     0.2      0.2            0.0

 IA2             0.0           0.0       0.0           0.0          0.0         0.0       0.0     0.0      0.0            0.0

 IB2             0.0           0.0       0.0           0.0          0.0         0.0       0.0     0.0      0.0            0.0

 BA1             0.0           0.0       0.0           0.0          0.0         0.0       0.0     0.0      0.0            0.0


*Highlighting indicates RUGs that were increased by the Balanced Budget Refinement Act



                                                                  Cont’d


    Trends in RUGs for SNFs                                         13                                             OEI-02-01-00280
                            CY 1999                                 CY 2000                       CY 2001       Difference
RUG           QTR 1         QTR 2     QTR 3     QTR 4     QTR 1     QTR 2     QTR 3     QTR 4      QTR 1        1999-2001
BB1            0.0           0.0       0.0       0.0       0.0       0.0       0.0       0.0        0.0            0.0

BA2            0.0           0.0       0.0       0.0       0.0       0.0       0.0       0.0        0.0            0.0

BB2            0.0           0.0       0.0       0.0       0.0       0.0       0.0       0.0        0.0            0.0

PA1            0.4           0.3       0.4       0.4       0.3       0.4       0.4       0.4        0.3           -0.1

PB1            0.1           0.1       0.1       0.1       0.1       0.1       0.1       0.1        0.1            0.0

PC1            0.1           0.1       0.1       0.1       0.1       0.1       0.1       0.1        0.1            0.0

PD1            0.3           0.3       0.4       0.4       0.4       0.4       0.4       0.4        0.4            0.0

PE1            0.1           0.1       0.2       0.2       0.2       0.2       0.2       0.2        0.1            0.0

PA2            0.0           0.0       0.0       0.0       0.0       0.0       0.0       0.0        0.0            0.0

PB2            0.0           0.0       0.0       0.0       0.0       0.0       0.0       0.0        0.0            0.0

PC2            0.0           0.0       0.0       0.0       0.0       0.0       0.0       0.0        0.0            0.0

PD2            0.0           0.0       0.0       0.0       0.0       0.0       0.0       0.0        0.0            0.0

PE2            0.0           0.0       0.0       0.0       0.0       0.0       0.0       0.0        0.0            0.0

Other          0.1           0.1       0.1       0.1       0.1       0.1       0.1       0.1        0.1            0.0

Total         421,912       412,927   406,346   421,990   476,749   430,072   416,336   392,319    374,529




  Trends in RUGs for SNFs                                  14                                               OEI-02-01-00280
